U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 4, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

James W. Richards, IV v. Matthew P. Donovan,
Acting Secretary of the Air Force, et a!,
S.CtNo. 19-55

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 8, 2019. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government's response is now due on September 13, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 15, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0055
RICHARDS, JAMES W., IV
MATTHEW P. DONOVAN, ACTING SEC. OF THE
AIR FORCE, ET AL.

MARK C. BRUEGGER
AIR FORCE LEGAL OPERATIONS AGENCY
1500 WEST PERIMETER ROAD
SUITE 1100
JOINT BASE ANDREWS, MD 20762
240-612-4782
MARK.C.BRUEGGER. CIV@MAIL.MIL

